LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-315: JOSE SANTOS SANCHEZ, ET AL. V. ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Professors Alan Morrison and Brian Wolfman referenced above contains 7,408
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of March 2021.

